Ballard Spahr

One Utah Center, Suite 800
201 South Main

Jason D. Boren
Direct: 801.517.6827

 

Fax: 801.531.3001

Salt Lake City,
borenj@ballardspahr.com

TFL 801.531.3000
Fax 801.531.3001
wwrweballardspahr.com

  

S4u

September 7, 2021

Hon. Scott S. Harris

Clerk of the Court

Supreme Court of the United States
1 First Street, NE

Washington, DC 20543

Rusk v. Fidelity Brokerage Services, No. 21-5331
Request For Extension of Time to Respond to Petition for Writ of Certiorari

Dear Mr. Harris:

1 am counsel for Respondent Fidelity Brokerage Service (“Fidelity”) in the above-captioned
matter. Petitioners’ petition for writ of certiorari was placed on the docket August 11, 2021. Per
Rule 15.3 of the Rules of the Supreme Court of the United States, Fidelity’s response, if any, is due
September 10, 2021. Fidelity hereby respectfully requests that its time to file a response to the
petition for writ of certiorari in this case be extended by 30 days to October 11, 2021.

This is Fidelity’s first request for an extension of time to file a response. Good cause exists
for the requested extension. Petitioner Rusk’s petition purports to present six questions for resolution
by this Court, several of which were not raised below, and attached as an appendix nearly 500 pages
of material. Fidelity requires the requested time to evaluate Mr. Rusk’s petition and the associated
material to determine what, if any, response would assist this Court in addressing Mr. Rusk’s petition
and to prepare a response that Fidelity determines would be most helpful to the Court.

For the foregoing reasons, Fidelity respectfully request that the time for filing a response to
the petition for writ of certiorari in this matter be extended by 30 days, to and including October 11,
2021.

Requesting counsel is not currently a member of the Bar of this Court and acknowledges that
any brief in opposition must be filed by a member of the Bar of this Court.

Sincerely,

ai re

Jason D. Boren

   

 

|
=|

  
 

RECEIV:
SEP - 9 2021

OFFICE OF THE
SUPREME COURT, U.S.

 

JDB/Ib

  
  

   

 

DMWEST #41826983 vI
September 7, 2021
Page 2

ce: Petitioner Zachary Rusk
211 N 10th Ave
Bozeman MT 59715

DMWEST #41826983 v1
